   AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

BUREAU OF JUSTICE ASSISTANCE GRANTS AWARDED 

    TO THE FATHER'S DAY RALLY COMMITTEE 

        PHILADELPHIA, PENNSYLVANIA

           U.S. Department of Justice 

         Office of the Inspector General 

                  Audit Division 


          Audit Report GR-70-14-002 

                 January 2014 

      AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

  BUREAU OF JUSTICE ASSISTANCE GRANTS AWARDED TO

         THE FATHER’S DAY RALLY COMMITTEE

            PHILADELPHIA, PENNSYLVANIA


                             EXECUTIVE SUMMARY


      The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of three grants awarded by the Office of
Justice Program’s (OJP) Bureau of Justice Assistance to the Father’s Day
Rally Committee (FDRC) for a violence reduction initiative in Philadelphia
that encouraged and supported building strong, stable family relationships.
These grants included: (1) award 2008-DD-BX-0575, (2) award
2009-D1-BX-0098, and (3) award 2010-DD-BX-0472, with a total award
amount of $1,554,914.

      The objective of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed FDRC’s program performance in
meeting grant objectives and overall accomplishments. We additionally
followed-up on issues identified in a prior review of FDRC’s internal controls.

      We determined that FDRC did not fully comply with the essential grant
requirements in the areas we tested, including: (1) internal controls,
(2) grant expenditures, (3) monitoring of subgrantees, (4) financial and
programmatic reporting, and (5) program performance and
accomplishments. As a result of our findings, we question $146,436 and
make nine recommendations. 1

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.

      We discussed the results of our audit with the President from FDRC
and have included his comments in the report, as applicable. In addition, we
provided a copy of our draft report to FDRC and OJP for comment. These
responses are appended to this report as Appendix III and IV, respectively.


       1
          During this audit, we identified certain issues requiring further investigation. We
made a referral to the OIG’s Investigations Division, and put our audit on hold pending
resolution of the referral. Subsequently, we were able to complete our audit and issue this
report.

                                              -i­
Our analysis of both responses, as well as a summary of actions necessary
to close the recommendations can be found in Appendix V of this report.




                                    -ii-
                                 TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1


Office of Justice Programs............................................................. 1

Bureau of Justice Assistance ......................................................... 2

Father's Day Rally Committee ....................................................... 2

Audit Approach............................................................................ 2


FINDINGS AND RECOMMENDATIONS........................................ 4


Internal Control Environment ....................................................... 4

Drawdowns ................................................................................ 7

Grant Expenditures ...................................................................... 8

Monitoring of Subgrantees ...........................................................11

Budget Management and Control..................................................16

Monitoring of Contractors ............................................................17

Reporting… ................................................................................18

Program Performance and Accomplishments ..................................20

Conclusion .................................................................................20

Recommendations ......................................................................21


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ........22


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS….. 24


APPENDIX III - FATHERS DAY RALLY COMMITTEE RESPONSE

  TO THE DRAFT AUDIT REPORT.............................................25


APPENDIX IV - OFFICE OF JUSTICE PROGRAMS RESPONSE

  TO THE DRAFT AUDIT REPORT.............................................29


APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
  CLOSE THE REPORT .............................................................32

                                 INTRODUCTION

      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of three grants awarded by the Office of
Justice Program’s (OJP) Bureau of Justice Assistance to the Father’s Day
Rally Committee (FDRC). These grants included: (1) award
2008-DD-BX-0575, (2) award 2009-D1-BX-0098, and (3) award
2010-DD-BX-0472. Collectively, these awards totaled $1,554,914 in OJP
funding.

            Awards to the Father’s Day Rally Committee
         Award          Award       Award End        Award
                      Start Date       Date          Amount
    2008-DD-BX-0575   07/01/2008    12/31/2010      $804,914
    2009-D1-BX-0098   09/01/2009    06/30/2011      $500,000
    2010-DD-BX-0472   10/01/2010    09/30/2012      $250,000
                                          TOTAL    $1,554,914
  Source: Office of Justice Programs.

      Grant 2008-DD-BX-0575 was awarded through the FY 2008
Congressional budget, providing a total award of $804,914 for the purpose
of establishing a violence reduction initiative in Philadelphia, Pennsylvania.
For this award, FDRC partnered with local nonprofit organizations to produce
a comprehensive violence/crime reduction community model program.

       Grant 2009-D1-BX-0098 provided a total award of $500,000 through
FY 2009 Congressionally-mandated funding and was to be used to promote
building strong, stable family relationships and facilitate the strategies of
conflict resolution for African-American males in the city of Philadelphia.

      Grant 2010-DD-BX-0472 was authorized and funded through a line
item in the FY 2010 Congressional budget and by the joint explanatory
statement that is incorporated by reference into the FY 2010 DOJ
Appropriations Act. The total award amount was $250,000 and was
awarded to continue the initiatives of the awards already described to reduce
crime and violence and promote strong family relationships especially among
the African-American male population in Philadelphia.

Office of Justice Programs

      OJP, within the U.S. Department of Justice, provides the primary
management and oversight of the grants we audited. Through the programs
developed and funded by its bureaus and offices, OJP works to form
partnerships among federal, state, and local government officials in an effort


                                        -1­
to improve criminal justice systems, increase knowledge about crime, assist
crime victims, and improve the administration of justice in America.

Bureau of Justice Assistance

      The Bureau of Justice Assistance (BJA) is a component of OJP that
works to support law enforcement, courts, corrections, treatment, victims’
services, technology, and prevention initiatives that strengthen the nation’s
criminal justice system. BJA also works to provide leadership, services, and
funding to America’s communities to provide training and technical
assistance to prevent crime, drug abuse, and violence at the national, state,
and local levels.

Father’s Day Rally Committee

      FDRC was established in 1989 by a group of concerned African-
American men in Philadelphia, Pennsylvania, who were committed to
reducing violence in minority communities. In 1996, FDRC was authorized
to operate as a nonprofit organization under section 501(c)(3) of the
Internal Revenue Code to continue to promote positive action and interaction
among the African-American male population.

      Over the past 22 years, FDRC has launched several programs and
peace campaigns to stop senseless violence in Philadelphia. Most notably,
FDRC sponsors the Annual Father’s Day Picnic to bring families together to
celebrate the African-American community.

Audit Approach
       We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide (OJP Financial Guide) and the award documents. The OJP Financial
Guide serves as a reference manual assisting award recipients in their
fiduciary responsibility to safeguard and ensure that grant funds are used
appropriately and within the terms and conditions of the awards. We tested
FDRC’s:

     • Internal Control Environment to determine whether the financial
       accounting system and related internal controls were adequate to
       safeguard grant funds and ensure compliance with the terms and
       conditions of the grants.

     • Drawdowns (requests for grant funding) to determine whether
       requests for reimbursement, or advances, were adequately


                                    -2­
       supported and if the FDRC managed grant receipts in accordance
       with federal requirements.

     • Grant Expenditures to determine whether costs charged to the
       grants were allowable, supported, and reasonable.

     • Budget Management and Control to determine whether FDRC
       adhered to the OJP-approved budget for expenditures of grant funds.

     • Reporting to determine whether the required Federal Financial
       Reports and progress reports were filed on time and accurately
       reflected grant activity.

     • Monitoring of Contractors to determine whether FDRC had taken
       appropriate steps to ensure that contractors complied with grant
       requirements.

     • Monitoring of Subgrantees to determine whether FDRC had taken
       appropriate steps to ensure that subgrantees complied with grant
       requirements.

     • Program Performance and Accomplishments to determine
       whether FDRC achieved the grant objectives and to assess
       performance and grant accomplishments.

      When applicable, we also test for compliance in the areas of program
income, matching funds, accountable property, and indirect costs. For these
grants, we determined FDRC had no program income, was not required to
provide matching funds, did not use grant funds to obtain accountable
property, and did not charge indirect costs.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                   -3­
               FINDINGS AND RECOMMENDATIONS

        COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

      We determined that FDRC did not fully comply with the
      essential grant requirements in the areas we tested. These
      areas included: (1) internal controls, (2) grant expenditures,
      (3) monitoring of subgrantees, (4) financial and programmatic
      reporting, and (5) program performance and accomplishments.
      As a result of these deficiencies, we questioned a total of
      $146,436. We also identified internal control deficiencies that
      contributed to these audit findings. These conditions, including
      the underlying causes and potential effects, are further
      discussed in the body of this report.

Internal Control Environment

      According to the OJP Financial Guide, grant award recipients are
responsible for establishing and maintaining an adequate system of
accounting and internal controls. The absence of an adequate and effective
internal control environment leaves grant funds at significant risk and
weaken the ability of the grant recipient to ensure that federal funds are
being adequately safeguarded and spent in accordance with the grant
objectives.

       As part of our audit, we evaluated FDRC’s policies and procedures for
audit objectives related to grant administration functions that we discuss in
the remaining sections of this report. We also considered other FDRC
policies and procedures that make up FDRC’s internal control environment.
Specifically, we reviewed FDRC’s recent audits and tax returns, and
evaluated the attention and direction provided by FDRC’s Board of Directors.

Prior Audits

      We reviewed FDRC’s financial statement audits for years 2008 and
2009. The accompanying audit reports did not identify significant problems
with internal controls or other issues that we believe could have a negative
impact on grant administration.

       We also inspected FDRC’s most recent not-for profit tax return filing
with the Internal Revenue Service (IRS) using Form 990. We determined
this tax filing was submitted late. The FDRC President explained that the
former FDRC auditor experienced difficultly submitting the tax return
electronically. Because the tax filing was submitted late, FDRC was assessed


                                    -4­
by IRS with a $10,000 late filing fee. However, this fee was subsequently
waived by the IRS after the tax filing was submitted.

      In addition to reviewing FDRC’s recent financial statements audits and
tax return filings, we reviewed what actions FDRC has taken in response to
an OIG review completed in 2007. 2 Although this review did not contain
formal audit findings and recommendations, the review did raise concerns
regarding FDRC’s grant administration and management as discussed below.

OIG Internal Control Survey (2007)

      Board of Directors Oversight

      In 2007, the OIG completed a review to assess FDRC’s internal
controls over grant funds and identify internal control limitations that
represent impediments to effective grant management and accurate financial
and progress reporting. This review identified three areas of concern: (1)
Board oversight, (2) background checks for employees working with
children, and (3) the use of the Urban Affairs Coalition as a contractor to
perform accounting work for the organization.

      For this current audit, we revisited the issue of Board oversight and
evaluated the attention and direction the Board provides FDRC. The FDRC
President said that the Board is more active than in the past and the Board
was involved with all FDRC activities. He also described the FDRC Board as
a governing board that gives assignments to him as President.

       We reviewed minutes of Board meetings and interviewed the FDRC
President and the FDRC Treasurer who is also a member of the
Board. Although the President and Treasurer told us that the Board meets
monthly and votes on significant matters related to FDRC, the
documentation FDRC provided us in the form of Board meeting minutes did
not support the statements made by the President. Specifically, although
FDRC officials told us the Board met monthly throughout the 33 month
period covered by the grants, they could only provide minutes for 7
meetings. According to the FDRC President, the former Program Assistant
failed to record some of the Board meetings, and therefore did not transcribe
the minutes.

      In addition, the minutes we reviewed from the seven meetings showed
no evidence of voting, discussion of the President’s compensation, grant

      2
         U.S. Department of Justice Office of the Inspector General, Survey of Internal
Control Procedures Father’s Day Rally Committee, Inc., Report SR-70-07-002 (May 2007).


                                          -5­
compliance, grant budgets, or oversight over the President, subgrantees, or
contractors.

       Due to the incomplete nature of the documentation related to Board
activities, we determined that FDRC was unable to demonstrate that its
Board provided attention and direction to FDRC. We also determined that
the Board did not exercise sufficient oversight over the President. This lack
of oversight represents an internal control shortcoming as the President’s
ability to act without Board approval does not provide effective segregation
of duties or accountability over federal funds. The lack of oversight also
increases the risk that fraud, waste, and abuse could occur, or that grant
funds could be expended for unauthorized and unallowable purposes.

     As a result of this finding, we recommend that FDRC improves the
documentation that demonstrates attention and direction of the FDRC Board.

Background Checks for Staff Working with Children

      The second concern identified by the prior OIG review related to the
lack of background checks for a contractor working with children. The FDRC
President explained that FDRC still has one contractor that was working with
children in a capacity related to projects funded by the grants audited. The
FDRC President said that he did not require a background check of this
contractor staff, but stated the contractor staff had a background check
completed because of his affiliation with another organization. At the exit
conference, we requested a copy of the background check; however, we
were never provided with this document.

Use of the Urban Affairs Coalition as Fiscal Agent

       The third issue identified in the prior report related to the potentially
high fees charged by FDRC’s accounting contractor, the Urban Affairs
Coalition. The FDRC President informed us that following the OIG Internal
Control Survey, he reviewed with the FDRC Board the merits of using the
consultant rather than handling fiscal administration in-house and decided to
continue using the contractor. However, we were unable to verify these
actions based on the Board minutes provided.

       Also, according to the FDRC President, FDRC did not complete a
thorough cost-benefit analysis that identified and compared the costs of
using the contractor with the costs associated with performing duties in­
house with existing FDRC staff, as discussed in the Expenditures section of
this report.



                                     -6­
Drawdowns

      The OJP Financial Guide establishes the methods by which the
Department of Justice makes payments to grantees. The methods and
procedures for payment are designed to minimize the time elapsed between
the transfer of funds by the government and the disbursement of funds by
the grantee. Grantees may request drawdowns of grant funding on a
reimbursable basis or in advance of making actual outlays. However, if
grant funding is requested as an advance, the grantee must ensure that
cash on hand is kept to a minimum and disbursed immediately or within 10
days.

       To determine whether grant funds were requested in advance or on a
reimbursement basis, we compared the timing of the requests for funding
with the payments FDRC made to the Urban Affairs Coalition. We also
interviewed an official from Urban Affairs Coalition who assisted the FDRC
President in completing grant fund requests. We completed this analysis for
all grant funds requested for awards 2008-DD-BX-0575 and
2009-D1-BX-0098. Due to a hold OJP placed on grant fund withdrawals for
award 2010-DD-BX-0472, FDRC was unable to complete any drawdowns at
the time our fieldwork began. OJP placed a hold on grant funds until FDRC’s
required Single Audit report for FY 2009 had been submitted to the Federal
Audit Clearinghouse. 3

       Based on our analysis, we determined that since January 2010,
requests for grant funding were made on a reimbursement basis. However,
prior to that date, we were unable to determine the timing of each grant
fund request. An official from the Urban Affairs Coalition (UAC) told us that
in July 2009, the UAC had replaced its accounting system and that some
difficulties occurred during that transitional period which may have affected
the timing of grant fund requests for FDRC. In addition, the official
explained that for award 2008-DD-BX-0575, requests for grant funding were
not completed on a monthly basis and did not correspond with the monthly
invoices submitted to FDRC. The official said that the timing of grant fund
requests may also have been affected by his absence or the absence of the
FDRC President while taking vacation or personal leave.

       Because FDRC was unable to reconcile the amount and timing of
drawdowns occurring prior to January 2010 with actual cash needs, it is
possible FDRC held excess cash during this period. However, the UAC
official we spoke with and the FDRC President have addressed this issue and

      3
         On June 7, 2011, OJP removed the hold on grants and FDRC was permitted to
expend, obligate, and draw down funds on award 2010-DD-BX-0472.


                                        -7­
since January 2010 have made requests for grant funds that are completed
as a monthly reimbursement basis, and that corresponds with the monthly
invoices submitted to FDRC.

Grant Expenditures

     According to the OJP Financial Guide, grantees are required to
maintain accounting records, including cost accounting records that are
supported by source documentation.

      As discussed earlier, FDRC contracted with the Urban Affairs Coalition
to provide accounting and other administrative services. According to its
website, the mission of the Urban Affairs Coalition is to strengthen nonprofit
organizations through fiscal sponsorship to free them to focus on their
missions.

      In addition to accounting services, the Urban Affairs Coalition provided
FDRC with procurement and payroll services. All of FDRC’s grant-related
expenditures were initially paid by the Urban Affairs Coalition; then, on a
monthly basis, it requested reimbursement from FDRC. In exchange for its
services, the Urban Affairs Coalition charged FDRC a flat fee amounting to 8
percent of each grant award received by FDRC.

      We reviewed the initial budget requests submitted by FDRC to OJP and
determined that for all three grants, FDRC consistently requested the 8
percent fee under the budget category of indirect cost. However, OJP denied
the fee as an indirect cost, but did approve the fees in other budget
categories as detailed in the following table.

       The following table presents the amount paid to the Urban Affairs
Coalition and the reclassified budget category.




                                     -8­
            Urban Affairs Coalition Charges Per FDRC Award
          Award           Total       OJP Approved    Urban Affairs
                          Award      Reclassification Coalition Fee
                         Amount
     2008-DD-BX-0575    $804,914       Contractual        $ 47,477

     2009-D1-BX-0098          $500,000          Personnel &           40,822*
                                                   Fringe
     2010-DD-BX-0472          $250,000          Contractual           14,793*

                                                        TOTAL      $103,092
  Source: OIG analysis of FDRC documents.
 *
     The amount presented was current as of February 28, 2011.

       As part of our transaction testing, we selected a sample of
expenditures related to payments made to the Urban Affairs Coalition. We
learned from Urban Affairs Coalition staff that rather than charge FDRC the
flat fee of 8 percent, FDRC was charged for a portion of the salary and fringe
benefits of the Urban Affairs Coalition employees that worked on the FDRC
grants.

      An official from the Urban Affairs Coalition told us that all staff charges
were recorded as journal entries for salary or fringe benefit abatements in
the Urban Affairs Coalition accounting system. Additionally, we were told
that the amount of each related charge was based on an estimate of how
much time each staff member spent on the grant rather than time and effort
reports that tracked actual grant-related work performed by these staff
members.

      According to the Office of Management and Budget (OMB) Circular
A-122, charges to awards for salaries and wages, whether treated as direct
costs or indirect costs, should be based on documented time and effort
reports approved by a responsible official of the organization. The reports
must also reflect an after-the-fact determination of the actual activity of
each employee, and budget estimates do not qualify as support for charges
to awards.

      Because FDRC’s grant expenditures for Urban Affairs Coalition charges
were predetermined, and actual time worked on grant-related activities was
not documented, we determined that the entire amount charged for the
Urban Affairs Coalition services of $103,092 was unsupported.




                                          -9­
Salary and Fringe Benefits

       According to the OJP Financial Guide, all financial records, supporting
documents, statistical records, and all other records pertinent to the award
shall be retained by each organization. This requirement also includes the
retention of personnel and payroll records, such as the time and attendance
reports for all individuals reimbursed under the award, whether they are
employed full-time or part-time.

       We reviewed the accounting records for each grant and identified the
total salary and fringe benefits charged for FDRC employees to the grants.
The following table summarizes this information.

                Salary and Fringe Benefits Per FDRC Award 4
              Award        Salary Total Fringe Total     TOTAL

     2008-DD-BX-0575                  $ 144,709            $ 76,847    $ 221,556

     2009-D1-BX-0098                     179,770              50,460     230,230

     2010-DD-BX-0472                     52,014              16,372       68,386
               TOTAL                  $376,493            $143,679     $520,172
   Source: OIG analysis of FDRC personnel and payroll records.

       We tested a sample of FDRC employee salary and fringe benefit
charges made to each grant by selecting and reviewing documentation for
three non-consecutive pay periods. For the salary charges, we compared
the amounts charged to the grants to supporting payroll documentation and
grant budgets, and determined each of the charges were approved by OJP
and supported. We also recalculated the fringe benefits related to the
salaries charged to the grant, and determined those calculations were
accurate.

       As part of our testing of FDRC personnel charges, we discussed the
policies and procedures related to tracking and approving the use of vacation
and sick leave by FDRC staff. Although we determined that the payroll
system tracks the amount of vacation and sick leave FDRC employees earn
and use, the system did not have procedures to identify and prevent FDRC
employees from being paid for vacation or sick leave they have not earned.

      The FDRC President explained that he does approve vacation and sick
leave for his employees within the FDRC payroll system and requires

      4
          This table excludes the Urban Affairs Coalition flat fee.


                                             - 10 ­
employees to submit a written leave form for vacation time. However, he
also told us that FDRC does not maintain a formal system of records and
procedures that would prevent FDRC employees from being paid for vacation
or sick leave they have not earned.

       We recommend that FDRC institute policies and procedures that
ensure that grant funds are not used to pay FDRC employees for vacation or
sick leave they have not earned.

Other Expenditures

        We tested supplies and other costs related to the grant, such as travel,
utilities, printing, and advertising expenditures. We determined these costs
were allowable and supported. We also tested payments to contractors that
provided services such as Information Technology, Financial Accounting, and
Employment Services. We determined FDRC spent $185,505 in grant
funding with six different contactors, including $139,843 to an employment
services provider. We determined the payments were allowable consistent
with the related budgets and adequately supported with invoices. Finally,
we tested payments to subgrantees that are described below.

Monitoring of Subgrantees

      According to the approved grant budget for award 2008-DD-BX-0575,
the FDRC classified two organizations performing work, Philadelphia Safety
Net and The Northwest Fund, as contractors. In reviewing the nature of
these organizations’ grant-related activities, we considered both agencies to
be subgrantees rather than contractors in accordance with the definition
provided in the OJP Financial Guide. We also determined that both
Philadelphia Safety Net and The Northwest Fund met the definition of a
subgrantee as established by OMB Circular Number A-133 which states a
recipient of grant funding is a subgrantee when its performance is measured
against whether the objectives of the Federal program are met; has
responsibility for programmatic decision making; and uses the Federal funds
to carry out a program of the organization as compared to providing goods
or services for a program of the pass-through entity. The following table
presents the budgeted and actual expenditures for each subgrantee.




                                     - 11 ­
             Award 2008-DD-BX-0575, FDRC Subgrantees
   Subgrantee      Purpose of Award    Award       Actual
                                      Amount    Expenditures
  Philadelphia   Gun Buy Back          $200,000     $186,894
  Safety Net     Program
  The Northwest Organizing, Peer         85,000       84,121
  Fund           Group Training &
                 Workshops
  TOTAL                               $285,000     $271,015
 Source: OIG analysis of OJP and FDRC data.

      The OJP Financial Guide states that as the direct grant recipient, FDRC
was required to ensure that the subgrantees had a system of internal
controls in place to safeguard and account for grant funds. FDRC was also
required to provide adequate monitoring to ensure that subgrantees used
grant funds for their intended grant-authorized purpose.

The Philadelphia Safety Net

      Because we audited two other OJP grants awarded directly to
Philadelphia Safety Net at the same time we audited the FDRC grant used to
make this sub-award, we were able to conduct a detailed review of the
expenditures Philadelphia Safety Net made using its subgrant. According to
the approved OJP grant budget and an agreement between FDRC and the
Philadelphia Safety Net, the funding provided by FDRC to Philadelphia Safety
Net was initially intended to be spent sponsoring four gun buy-back events
with the goal of collecting over 1,000 guns. The entire Philadelphia Safety
Net budget of $200,000 was earmarked for the purchase of 100 gift cards
valued at $200 each to distribute to participants who turned in guns.

      However, within 3 months of this agreement, Philadelphia Safety Net
requested that FDRC amend its budget so that $52,200 could be used for
operational costs, including $45,000 for the Philadelphia Safety Net
Executive Director’s salary. The FDRC Executive Director told us he
approved this change to the PSN subgrant budget, but before doing so, he
requested approval from OJP. The FDRC Executive Director said OJP did not
respond to his request and we found no evidence of this request during our
review of grant-related documents.

      We determined that between January and September 2009, FDRC
provided Philadelphia Safety Net with 16 payments totaling $186,894.5 Each

      5
          We determined the remaining $13,106 ($200,000 - $186,894) was never provided
to Philadelphia Safety Net and was reprogrammed for other FDRC uses.


                                        - 12 ­
of these payments was supported by an invoice that included a general
description of related expenditures claimed by Philadelphia Safety Net. We
determined FDRC relied on these invoices only to make payments to
Philadelphia Safety Net and did not request or review Philadelphia Safety
Net’s accounting system records in support of these invoices.

        The FDRC Executive Director told us that he performed no pre-award
review of the subgrantees’ financial capabilities, policies and procedures, key
internal controls, fiscal history, including prior audit information. During the
life of the grant, FDRC did not conduct any on-site visits or desk reviews of
either subgrantee. We determined FDRC’s only policies and procedures for
monitoring Philadelphia Safety Net was collecting invoices and performance
reports.

      As noted earlier, we had access to the Philadelphia Safety Net
accounting records in connection with another audit and we summarized
then compared the information in the invoices with expenditure data from
Philadelphia Safety Net’s accounting system records. The following table
presents this comparison.

              Subgrant Expenditures by Philadelphia Safety Net
                          Expenditures           Expenditures Per
                            Per PSN               PSN Accounting
 Cost Category              Invoices                 System           Difference 6
 Gift Cards                    $117,000                  $117,300        $   (300)
 Personnel Costs                  28,471                    37,113       $ (8,642)
 Other Operating
 Costs                             41,423                    29,041      $ 12,382
 Total                          $186,894                  $183,454       $ 3,441
 Excess Cash                                                             $ 3,441
Source: Philadelphia Safety Net invoices and accounting records.

      As shown in the table, the invoices that Philadelphia Safety Net
provided FDRC came very close to accurately reporting the amount of
subgrant funding spent on gift cards for gun buy-back events. However,
these invoices did not reasonably reflect how Philadelphia Safety Net used
subgrant funding for personnel and other types of operating costs. In
addition, these misstated invoices resulted in FDRC unknowingly providing
excess cash totaling $3,441 to Philadelphia Safety Net. Because Philadelphia


       6
           Due to rounding, values do not sum.


                                           - 13 ­
Safety Net did not use this excess funding for grant authorized purposes, it
represents unsupported use of funding.

       We verified that Philadelphia Safety Net used $117,300 in funding
from this subgrant to purchase gift cards for use at gun buy-back events.
However, we also identified concerns with Philadelphia Safety Net’s handling
of these cards. Issues concerning all gift cards used in the Philadelphia
Safety Net program are covered in detail in our audit of Philadelphia Safety
Net. 7

      We also verified that Philadelphia Safety Net combined funding from
the FDRC subgrant with funding from another OJP grant and a Pennsylvania
state grant to pay the Executive Director’s salary of $86,876 in 2009. In our
audit of the other OJP grant, we determined that salary expenses paid with
that grant were both unallowable and unsupported. As the funding from the
OJP grant awarded directly to Philadelphia Safety Net and the OJP subgrant
from FDRC were used for the same purpose, we determined that salary
expenses paid for with the OJP subgrant from FDRC were also unallowable
and unsupported. We therefore identified the personnel costs of $37,113
which FDRC funded as unallowable and unsupported as well.

      Related to the expenditures classified as “Other Operating Costs” in
the table above, we determined that subgrant funding was actually used for
personal expenditures made by Philadelphia Safety Net’s Executive Director.
These expenditures totaled $2,218 and included a parking ticket on a
personal car ($393); a hotel stay ($286), gasoline purchases ($248),
parking and food expenses ($142), and ATM withdrawals – all of which were
made for his personal activities unrelated to PSN business. In addition,
grant funding was used to pay bank overdraft fees that resulted from these
transactions totaling $572. The FDRC Executive Director told us he was not
aware of Philadelphia Safety Net’s misuse of the subgrant funding on
personal expenditures until we informed him. In total, we determined
$2,790 in expenses related to the Philadelphia Safety Net Executive
Director’s personal use of grant funding and bank overdraft fees is
unallowable.

      We also evaluated Philadelphia Safety Net’s program performance.
The following table compares the number of planned events and estimated
guns to be collected with the actual number of events and guns collected.



       7
          U.S. Department of Justice Office of the Inspector General, Audit of the Office of
Justice Programs Edward Byrne Memorial Justice Assistance Grants Awarded to Philadelphia
Safety Net, Philadelphia, Pennsylvania, Audit Report GR-70-14-001 issued January 2014.


                                           - 14 ­
              Subgrant Expenditures by Philadelphia Safety Net
         Performance Objective                   Planned               Actual
           Gun Buy-Back Events                       4                   5
                                                 1,000 @           1,173 @
               Guns Collected
                                                 $200/gun          $100/gun
     Source: Philadelphia Safety Net invoices and accounting records

       As described previously, the goal of collecting 1,000 guns was based
on using gift cards costing $200 each. Because Philadelphia Safety Net
purchased gift cards for $100 each, it was able to exceed the goal of
collecting 1,000 guns while using $117,300 instead of $200,000. By using
less expensive $100 gift cards, Philadelphia Safety Net did not spend as
much on the gift cards as estimated and used the remaining funding
($66,154, or 36 percent, of the $183,454) for administrative purposes.
However as already discussed, the goal that was submitted and approved by
OJP in making the award was to buy back 1,000 guns without using grant
funding for administrative purposes.

       In conclusion, FDRC did not adequately monitor its subgrantees
throughout the life of the grant and, coupled with the lack of formalized
policies and procedures for monitoring of the subgrantees, put grant funds
at risk. We question the amount of unallowable and unsupported
expenditures made by the Philadelphia Safety Net totaling $43,344.

The Northwest Fund

       The grant objectives to be addressed by The Northwest Fund included
providing crime reduction and crime prevention services for FDRC. More
specifically, according to The Northwest Fund’s agreement with FDRC, in an
effort to reduce and prevent crime, The Northwest Fund and its partner
agencies provide community organizing and non-violent communications
trainings and workshops for residents in northwest Philadelphia.

      To monitor the financial and programmatic aspects of The Northwest
Fund’s grant related activities, FDRC collected eight invoices and one
progress report over the period of 1 year. We evaluated the sufficiency and
accuracy and these documents by comparing the information with source
documents and information we collected through interviews with officials
from The Northwest Fund.

     We found the invoices were generally accurate in reflecting the source
documents provided by The Northwest Fund. However, the progress reports



                                        - 15 ­
were not sufficiently detailed and submitted infrequently. Specifically, the
progress reports did not provide, in a timely manner, an accurate and
complete indication of The Northwest Fund’s progress on implementing the
grant program’s efforts. For example, the progress reports that we reviewed
did not mention the grant objectives or FDRC.

      According to the FDRC President, The Northwest Fund had trouble
meeting its goals and objectives. Specifically, meetings that The Northwest
Fund hosted related to community organizing were not well attended by the
public. However, these troubles were not reflected in the progress reports.

       We believe that by relying solely on invoices and vague progress
reports and not incorporating monitoring techniques such as on site visits,
FDRC failed to adequately monitor the activities of The Northwest Fund. We
also believe that more effective subgrantee monitoring may have identified
the Northwest Fund’s problems sooner and avoided wasting grant funding on
activities that were not effective at meeting grant objectives.

     Moreover, The Northwest Fund ceased its operations in May 2009,
3 months before the end of the FDRC and The Northwest Fund agreement.
We believe that if FDRC examined the financial stability of The Northwest
Fund before the funding was awarded, FDRC could have used grant funds
more effectively.

      We recommend that FDRC improve their subgrantee monitoring to
include more effective monitoring techniques.

Budget Management and Control

       The OJP Financial Guide addresses budget controls surrounding
grantee financial management systems. According to the OJP Financial
Guide, grantees are permitted to make changes to their approved budgets to
meet unanticipated program requirements. However, the movement of
funds between approved budget categories in excess of 10 percent of the
total award must be approved in advance by OJP.

     OJP approved budget modifications for FDRC’s 2008-DD-BX-0575 and
2009-D1-BX-0098 awards. We compared budgeted amounts from the
approved financial clearance memorandums to actual expenditures. We
determined that for all three grants, FDRC incurred and charged actual
expenditures within their defined cost budget categories.




                                   - 16 ­
                   Budget Management for FDRC Awards
                   Award Budget   Award Budget     Award Budget
     Cost          2008-DD-BX­    2009-D1-BX­      2010-DD-BX­
   Category            0575            0098            0472
                      Amount          Amount          Amount
 Personnel              $245,240         $246,479        $156,250
 Fringe                    71,732          72,881          51,562
 Benefits
 Travel                       2,861                   3,334
 Equipment                    4,710                   5,280
 Supplies                     3,537                   6,970                1,941
 Contractual/               446,125                 117,700               18,647
 Subgrantee
 Other                       30,709                   47,356              21,600
       TOTAL              $804,914                 $500,000            $250,000
Source: OJP award documents.

Monitoring of Contractors

      To assess the adequacy of contract monitoring, we reviewed the
agreements between FDRC and its contractors and interviewed FDRC’s
President. The following table presents the contractors paid for each award
and the actual expenditures.

                            FDRC Contractors
   Contracted            Award             Award                       TOTAL
     Service        2008-DD-BX-0575 2009-D1-BX-0098
 Employment                  $75,000           $64,843                  $139,843
 Services
 Information                         1,200                      604        1,804
 Technology
 Financial                           3,700                     4,550       8,250
 Accounting
 Program                           10,100                                 10,100
 Evaluation
 Auditor                           6,000                    6,000         12,000
 Program Prep                      1,568                   11,940         13,508
         TOTAL                   $97,568                 $87,937       $185,505
Source: OIG analysis of FDRC documents.




                                          - 17 ­
      We examined the records related to FDRC’s single largest contract,
Employment Services, and found invoices that lacked sufficient detail and
substance.

Reporting

Federal Financial Reports (FFRs)

       OJP monitors the financial aspects of grants through Federal Financial
Reports (FFRs). 8 FFRs provide OJP grant managers current and cumulative
information on expenditures and obligations on a quarterly basis and are one
way OJP monitors grants. According to the OJP Financial Guide, FFRs should
be submitted within 45 days of the end of the most recently passed
quarterly reporting period. The final FFR report is due 120 days after the
end date of the award. When grantees submit inaccurate or late FFRs, OJP’s
ability to evaluate the financial aspects of ongoing grant programs is
compromised.

      We reviewed 17 FFRs that covered activity that related to all three
grants between July 2008 and December 2010. We tested these FFRs for
both accuracy and timeliness. We compared the amount of quarterly
expenditures reported on the FFRs with expenditure data from the
accounting records maintained by the Urban Affairs Coalition.

      Although we were able to match total grant expenditures to date from
each grant’s most recent FFR with total grant expenditures, we were unable
to reconcile the same data on a quarterly basis. Because the amounts
reconciled in total but not on a quarterly basis, we determined the FFRs were
inaccurate due to timing differences.

       An official from the Urban Affairs Coalition told us that the timing
differences occurred because FDRC obligated grant funds and reported the
obligated amount in addition to the actual expenditures on the FFR. We
reviewed the FFRs to determine whether FDRC recorded unliquidated
obligations and determined that FDRC did not separate or record the
expenditures as liquidated or unliquidated obligations. The lack of accurate
reporting compromises OJP’s ability to manage its grantees.

      We also determined that of the 17 FFRs submitted by FDRC, 3 were
late. The FDRC President did not recall why the FFRs were late. When a

       8
         These reports are no longer called Financial Status Reports. Effective for the
quarter beginning October 1, 2009, grant recipients must report expenditures online using
the Federal Financial Report (FFR-425) Form no later than 30 days after the end of each
calendar quarter.


                                          - 18 ­
grantee submits late or inaccurate FFRs, it hinders OJP’s ability to properly
monitor the financial activities related to the grants provided.

       We recommend that FDRC improve the accurate preparation of the
FFR to include unliquidated obligations and ensure the reports are timely
filed.

Progress Reports

       Progress Reports are submitted to describe the performance of grant
activities and the accomplishment of the objectives set forth in the approved
award application. According to the OJP Financial Guide, progress reports
are to be submitted within 30 days after the end of the quarterly reporting
periods.

      We reviewed nine reports that covered activity that related to all three
grants between July 2008 and December 2010. Although we determined
that all of the progress reports were submitted timely, we were unable to
determine the accuracy of the progress reports.

       We asked the FDRC President to provide documentation to support the
information reported in each progress report. The FDRC President said that
only recently did the FDRC create reporting forms and files to track program
participation. Earlier in the grant period, the FDRC President relied on verbal
discussions among FDRC staff to complete progress reports and produce ad
hoc source documentation that would serve to support information contained
in progress reports submitted to OJP.

       We believe it is significant that the grantee did not maintain adequate
documentation throughout the life of the grant to effectively keep track of
the participants involved in the program for each of the reporting
periods. As a result, we do not believe the progress reports accurately
reflected grant activities because FDRC was unable to document its grant
accomplishments.

      The lack of accurate progress reports hinders OJP’s ability to monitor
grant activity and increases the risk for grant funds to be wasted or used for
unallowable purposes.

       We recommend that FDRC implement and adhere to written policies
and procedures to ensure progress reports are adequately documented and
verifiable.




                                    - 19 ­
Program Performance and Accomplishments

      To assess FDRC’s achievements in meeting its stated goals, we
interviewed the FDRC President, reviewed its progress reports, and
requested any data that FDRC compiled, maintained, and used in order to
measure and evaluate performance and accomplishments related to each
grant-funded goal.

      The FDRC President acknowledged that FDRC did not achieve many of
the grant related goals because FDRC underestimated their difficulty. The
FDRC President also added that although many goals were not achieved, the
programs were successful in other ways.

      However, as previously cited in the reporting section of this report, the
grantee did not maintain adequate documentation throughout the life of the
grant to effectively keep track of the participants involved in the program for
each of the reporting periods. The FDRC President told us he recognizes the
importance of creating and maintaining reliable data on performance to
demonstrate the effectiveness of FDRCs programs.

      Without collection of data that measures performance we cannot
conclude that DOJ funds were used efficiently and effectively addressed the
problems for which the money was given. OJP’s ability to monitor the
grant’s progress was impaired because it was not properly appraised about
FDRC’s activities, which increased the chance of fraud, waste, and abuse of
grant funds.

      We recommend that FDRC improve documentation that demonstrates
achievement of performance goals and objectives.

Conclusion

      We found that FDRC did not fully comply with grant requirements and
applicable OMB guidance in several of the areas we tested. These areas
included: (1) internal controls, (2) grant expenditures, (3) monitoring of
subgrantees, (4) financial and programmatic reporting, and (5) program
performance and accomplishments. As a result of these deficiencies, we
questioned $146,436.




                                    - 20 ­
Recommendations

We recommend that OJP:

1. Ensure that FDRC improves the documentation that demonstrates
   attention and direction of the FDRC Board.

2. Remedy the $103,092 in unsupported costs charged to the grant.

3. Ensure that FDRC institute policies and procedures that ensure that grant
   funds are not used to pay FDRC employees for vacation or sick leave they
   have not earned.

4. Ensure that FDRC improve their subgrantee monitoring to include more
   effective monitoring techniques.

5. Remedy the $43,344 in unallowable expenditures made by FDRC
   subgrantee, the Philadelphia Safety Net.

6. Remedy $37,113 in unsupported expenditures made by FDRC
   subgrantee, the Philadelphia Safety Net.

7. Ensure that FDRC improve the accurate preparation of the FFR to include
   unliquidated obligations and ensure timely filing.

8. Ensure that FDRC implement and adhere to written policies and
   procedures to ensure progress reports are adequately documented and
   verifiable.

9. Ensure that FDRC improves the documentation that demonstrates
   achievement of performance goals and objectives.




                                   - 21 ­
                                                              APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed grantee program performance in
meeting grant objectives and overall accomplishments. The objective of our
audit was to review activities in the following areas: (1) internal control
environment, (2) requests for grant funding, (3) grant expenditures,
(4) monitoring of subgrantees, (5) budget management and control,
(6) monitoring of contractors, (7) federal financial and progress reports, and
(8) program performance and accomplishments. We determined that
program income, property management, indirect costs, and matching funds
were not applicable to these grants.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we used sample testing while testing grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
high dollar amounts or expenditure category based on the approved grant
budget. This non-statistical sample design does not allow for the projection
of the test results to the universes from which the samples were selected.

      We audited three Office of Justice Programs grants: (1) award 2008­
DD-BX-0575, (2) award 2009-D1-BX-0098, and (3) award 2010-DD-BX­
0472. FDRC had a total of $1,205,814 in funding requests and receipts of
grant funding through February 11, 2011.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audit against are contained in the Office of Justice Programs
Financial Guide and grant award documents.

      In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports and progress reports, evaluated actual program
performance and accomplishments to grant goals and objectives, and



                                    - 22 ­
considered internal control issues. However, we did not test the reliability of
the financial management system as a whole.




                                    - 23 ­
                                                                       APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS 9:                                        AMOUNT               PAGE

Unsupported Costs
   Urban Affairs Coalition Expenditures                        $103,092           9

Unsupported Subgrantee Costs
   Personnel Costs                                              $ 37,113          14

Unallowable Subgrantee Costs
   Excess Cash                                                   $ 3,441          13
   Personnel Costs                                                37,113          14
   Personal Use Expenditures                                       2,790          14

Gross Questioned Costs                                         $183,549
Less Duplicative Questioned Costs 10                          ($37,113)
NET QUESTIONED COSTS:                                         $146,436

TOTAL DOLLAR-RELATED FINDINGS:                                $146,436




       9
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
       10
          Some costs were questioned for more than one reason. Net questioned costs
exclude the duplicate amount.


                                          - 24 ­
                                                                                   APPENDIX III


       FATHERS DAY RALLY COMMITTEE

    RESPONSE TO THE DRAFT AUDIT REPORT



                                Fathe r's Day Rally Committee
                                     T he Ha tfield House
                                   3201 W est G i ra rd Avenu e
                                     Phila delphia, PA 191 30


November 26, 2013


Mr. "1110m;u; O. Puerler
Regional Audit Manager
Philadelphia Regional Audit Office
Office of the I n~pector Gener.!l
U.S. Department of Justice
70 1 Market Street, Suitc 201
Philadelphia, Pa. 19106



TIle Father's Day Rally Committee, Inc. (FDRC) is writing to respond to the Office of the
Inspector General draft audit report, dated Novcmber 8, 20 I 3 for grant numbers 2008-DD-BX-
0575, 2009-DI-8X-0098 and 20 10-DD-8X-0472., award by the Bureau of Justice Assistance to
FORe.

First, FDRC is grateful to have had the opportunity to provide service to the troubled male
population of Philadelphia by receiving fundi ng from the Office of the U.S. Department of
Justice. Second, FDRC h;u; reviewed yo ur drall audit and are submitting thi~ packet in re~pon~e.
Enclosed, please fi nd:
    • Itemizcd responses to the drill audi t recommendations
    • Letter from FDRe to Philadelphia Safety Net requiring responses and remedies
    • Letter from FDRC to Urban Affairs Coalition requiring responses
    • Background check documentation for FDRC ~tarr working with children
    • Budget change request letter to DOl Grants Manager.

In addition to our responses to the recommendations in the draft audit, there were several other
issues we want to address.



Back gro und C hecks fOl· S ta tf Wo rkin g with C hildren

Attachcd i~ thc copy of the Criminal Rccord Check and Pennsylvania Child Abu~e Clearance of
our employee working with yout h. In the future, FDRe will require all staff to have background
checks. ( Sce Attachment C)




                                            - 25 - 

Sdec:tion of Sub-Grantees

The report stated th ot the FDRC President infoffl.ed the al ditors th ot the selection of
Philadelphia Safety Net and The Northwest Fund, including th ei r related grant obj ectives, was
made in co nsultatio n with th e memb er 0f Congress th ot spo nsored th e grant. FDRC wants to
make it clear that it did not consult with the memb er 0f Con gress before sel ecting th e sub ­
gr:ntees, Th e sub -gr:ntees were selected because th ey provid e th e type of services nee ded to
accomp li sh the goals of th e grant

Th e Philadelphi a Safety Net is th e only organization in Phi ladelphi a doing gun buy backs and th e
Northwe:t Fund provides town watch:nd blo ck club training Both organizations were included
in the grant i4l plication,


Budget ManagtlIlentand Control

FDRC acknowl edges that an error was made by FDRC not following the pro cess to submit a
budget change request on GMS, Instead, FDRC was in communication with the OJP Grant
M:nger and submitted the budget change request directly to the Grant M:nager (See att a:;hment
D)
In closing. FDRC feels that th e DOJ draft audit report identifi es some of th e co ncerns th ot we
also have 0four org:nizati on and wil! ultim ately mak e us a better org:nizati on, We also beli eve
we hav e come a lon g way in improving OUl" op er ation from th e fi rst audit in 2007 , We hav e and
will continu e to improve th e organizotion's internal controls, monitoring and reporting
requirements , We 10 ok fON'ard to reso lving th e recomm endations in this rep ort :nd hop eful! y
c:n work together with the Department of Justice in the future to address the issue of reducing
vio lence in Philadelphia,




:Walta~------
Hi1,,1 A. Qayyum
President
Cc FDRC Board Memb ers




                                              - 26 ­
Response by Father's Day Rally C ~lttee , I nc .
Draft Audi t of t he Office of )usti(e Assistan(e Grants awarded t o Father's Day
Ra l ly Committee, Inc .
November 26, 20ll


DOJ Recommendations

1. Ensure t ha t FORC i mp roves t he documentation t hat demonstrates attention an d
direction Of the Board. FORC concurrence:

FORe is in the process of recruiting new board members and officers and has
developed a ... egular IIIOnthly Eklilrd meeti"g schedul e . The President of FDRe will
meet Io(eekly with the board Chairman t o ensure t.here 1s board over - SiTe of daily
operations of the orgilniZiltion. Th e SeCretilry will be responsible fo r recording
and transmitting boa rd meet ing minutes which will be made availilble to all Board
members prio ... to th e next meeling. The Soard minut es will (learly r eflect all
board actions and approvals at each meeting.
2. Remedy of $103,092 in un supported costs cha rged t o the grant. FORC non_
con(u rren ce:

FORe (hose to utilize the fiscal oversight services of the Urban Affairs
COallt.10n (VAC, bQCaUSe It. WOUld nave been much more e~pensive to bring these
services in-house and VA( has a long history of providing these services to many
non-profits in Philadelphia .
FDRe President me t wi th urb~n Affairs Coalition Chief Financial Officers who
ensured FORe that UAe wi ll forward to FORe illl information nec essary to ~ddre5s
t he unsupported costs of Sl03,092 question in t.he audit . See attach~nt B

3. Ensu r e that FORC institute policies and procedures that ensure t hat grant
funds are not used to pay FO RC emp l oyees for vacations or sick leave t hey have
not e~rned. FOR( tonturrence:

FORe is ~stablishing ~ 8o~rd sub- committee to address re(omrnended policy        ch~nges
wh ich will include the following:
  Revise FORC policy fo r employees regarding vacation and sitk lea ve.
• CreJte syst.ems to more accurately t r ack vilcation ilAd sick leave time.
   Not allow use of time prior to having been earned.

4. Ensure that f ORe i mprove their sub eran t ee mon itoring to i ncl Ude more
effective monitoring techniques. f ORe concurrenCe;

fORe is developing an operation ilnd procedures .anual that will (learly outline
procedures to IDOre effectively IlIOnitor grants and sub grantees .
 The procedures will include:
• Pre-award r evi ew of fi nancial capabilities , policies , procedures , key internill
controls , fiscal history ilnd prior iludit info rmation.
• (olle( t ion of sub- grantees invoicQs forms and perform   ance reports_
  On-site viSi t s by FORC staff
  A written monitoring tool to be used with sub-grantees




                                          - 27 ­
5. Re-edy th e S41,l44 1n unallowable expenditures .,de by FDRC sub            gr~ nte .,   th.
Philadelphia Safe t y N t . FORe concu rre nce:
                       e

FORe has sent the Philade lphi~ Safety Net ~ letter reques t in g all of their
records ~latlng to our grant f or t he 14),)44. In our let t er w are requesting
                                                                  e
PSN to reimburse FORe the unallow~b le co~ts (excess ca~h of S) ,44 1 and the S2,190
f or personal use eKpenditures).
See att achoent A
6 . Re=edy $11,11) i n uns uppo rted expe nditu r es .,de by FORe sub grantee, the
philadelphi a Saf e t y Net . FORe concurrence :

5)7 ,113 f or personnel costs was us ed t o cover the cost of covering salary for
Executive Director Of Philadelphia Saf ety Net. FORC has requested , 1n wri t ing.
t he pay roll register of PSN to ver i fy t ha t the questionable cos ts were used f or
personnel cos t s. See attachment A

7. Ens ure that FDRe i mpr ove t he accu rate prepar at ion of the FFR to include
unliqu idat ed obligati ons and ensure time ly filine. FORe conc urrenCe :

FORe will ensure that all staff person(s) respons i ble for any future federal
grants understand the regulations of t he funding source and submit~ t o the B  oard
for its approval a plan which will i nClude t i met ~blc5, reporting requirements
unliquidated oblig~tions, and a lis t of dates for filing all neport ~.
The Pre~ident will report to t he board any problems t h~t Dight arise in the
program that would pravent an accurat e report being suhait to FFR or any other
(unders.

8. Ensure that FORC i mpl ements jnd j dhe res to written policies and procedure$ to
ensure progre ss re po rt s ar e adequately doc umented and ve r ifiable . FORC
concurrence:

FORe will develop p~edures to more accurat ely track project metrics and MOre
stringen t ly oversee ~taff and sub-con t ractor·s utilization o( t racking
p~edures.


9. Ensure t ha t FORe improves t he documen ta t i on t hat   de~n strates   achi evement of
pe~o rminc e goals ~n d obj ectives . FORe concur r ence:


FORe will MOre accurately t rack metr i cs of performance go~ls and objectives and
ou t come measures. FDRC will enSure lh~t staff and subcontract ors are meet ing all
goals and ohjectives related t o all grants and contracts. FORe wi ll develop a
monit oring t ool to be used wh enever a sub-grantee is involved t o ensure
perfonnance goals are being met.




                                            - 28 ­
                                                                                                              APPENDIX IV


           OFFICE OF JUSTICE PROGRAMS

       RESPONSE TO THE DRAFT AUDIT REPORT


                                                                    u.s. Depa rnn cDt Df Justice
                                                                    Office 0/Justice Programs

                                                                   Office 0/Audi/, Assessment, and Management



                                                                   W...... lw,!l .... D.C lO$JI


      DEC ·6 2013

MEMORANDUM TO:                        Thomas O. Puerzer
                                      Regional Audit Manager
                                      Philadelphia Regiona l Audit Office
                                      Office of the Inspector General

FROM:                                 Maureen A. Henneberg
                                      Director   ~~y
SUBJECT:                              Response to the DraA Audit Report, Audit o/the Office 0/Justice
                                      Programs, Bureau of Justice Assistance Grants Awarded /0 the
                                      Father's Day Rally Committee, Philadelphia, Pennsylvania

This memorandum is in reference to you r correspondence, dated November S, 201 3, transmitting
the above-referenced draA audit report for the Father'S Day Rall y Committee (FDRC). We
consider the subject repon resolved and req uest written acceptance o f this action from your
office.

The draft report contains Dine recommendations and S 146,436 1 in net questioned costs. The
following is the Office of Justice Programs' (Ol P) analysis orthe draft audit report
recommendations. For ease of review, the recommendations are restated in bold and are
followed by our response.

I.        We reeummend that OJP enSUrf that FORC improves the documentation Ihat
          demonstrates attention and direction orlhe FORC Board.

          OJP agrees with the recommendation. We will coordinate with FORC to obtain a
          copy of policies implemented for ensuring that the FORC Board is actively engaged in,
          and provides dim;tioD over, FORe activi ties.

2.         We recommend that OJP remed y the $103,092 in uns upported cosls charged to the
           grant.

           OJP agrees with the recommendation. We will coordi nate with FORC to remedy
           the $ 103,092 in unsupported costs charged to grant numbers 200S-DO-BX-OS7S,
           2009-01 - BX-0098. and 20 1O-DD-BX-0472.


I   Some costs were qucstioned for   rno;n   maIl (lilt reason.   Nee queslioned costs exclude    w duplicale amounts.




                                                           - 29 - 

                                                                               ..
                                                                               ,    _---'--.---.........   ~---


3.   We recommend that OJP ensure that FDRC institute policies and procedures that
     ensure that grant funds are not used to pay FURC employees for vacation or sick
     leave they have not earned.

     OlP agrees with the rewmmendation. We will wordinate with FDRC to obtain a
     copy of policies and procedures implemented to ensure that grant funds arc not used to
     pay FORC employees for vacation or sick leave that has not been earned.

4.   We reco mmend tbat OJP ensure that FORC improve tbei r subgrantee monitorin g
     to include more elTective monitoring techniques.

     OIP agrees with the recommendation. We will coordinate with FORC to obtain a
     copy ofpol icics implemented to ensure that subgrantecs IiTC adeq uately monitored.

5.   We recommend that OJP remedy the $43,344 in unallowable Cl:penditures made by
     FDRC subgra ntee, tbe Philadelphia Safety Net.

     OlP agrees with the recommendation. We will coordinate with FORe 10 remedy the
     $43,344 in unallowable expenditures made by Ihe Philadelphia Safety Net (I'SN), a
     subrecipient of FDRe.

6.   We recommend tbat OJP remedy the $37,1 13 in unsupported ex penditures made by
     }<'DRC subgrani'ee, tbe Philadelphia Safely Net

     OlP agrees with the recommendation. We will coordinate with FORC to remedy the
     $37,113 in unsupported expenditures made by PSN.

7.   We reeommend that OJP ensure that FDRC improve the accurate preparation of
     the FFR to inelude unliquidated obligations and ensu~ limely filing.

     OlP agrees with the recommendation. We will coordinate with FDRe to obtain a
     copy of procedures implemented to ensure that Federal Financial ReJXlrts are accurate,
     complete, and timely submitted.

8.   We recommend t ha t OJP ensure that FDRe implement a nd adhere to written
     policies and procedures to ensure progress reports are adequately documented and
     ve rifiable.

     OlP agrees with the recommendation. We will coordinate with FORC to obtain a
     copy of procedures implemented to cnsure that progress reports arc adequately
     documented and verifiable.




                                             2




                                          - 30 ­
9.     We recommend lhat OJP ensure that FDRe improves the documentation that
       demonstrates achievement of performance goals 3nd objectives.

       OlP agrees with the recommendation. We will coordinate with FDRC to obtain a
       copy of procedures implemented for ensuring that adequate data is collected and
       maintained to support achievement of performance goals and objectives.

We appreciate the opponunity to review and comment on the draft audit report. If yml have any
questions or require additional information, p lease contact Jeffery A_ Haley, Deputy Director,
Aud it and Review Division, on (202) 616-2936.

ce:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       DeniSt: O'Donnell
       Director
       Bureau of Justice Assistance

       Tracey Trautman
       Deputy Director for Programs
       Bureau of J ustice Assistance

       Eileen Garry
       Deputy Director
       Bureau of Justice Assistance

       James Simonson
       Budget Director
       Bureau of Justice Assistance

       Amanda LoCicero
       Budget Analyst
       Bureau of Justiec Assistance

       Gale Farquhar
       Grant Program Specialist
       Bureau of Justice Assistance

       Richard P. Theis
       Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       Control Number 2013-1796
                                                 3




                                            - 31 ­
                                                             APPENDIX V


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Father’s Day Rally
Committee (FDRC) and the Office of Justice Programs (OJP). FDRC’s
response is included as Appendix III, and OJP’s response is included as
Appendix IV of this final report. Because OJP agreed with our
recommendations and discussed the specific actions that will be taken to
address each of our findings, we consider all of the recommendations
resolved. However, FDRC disagreed with one recommendation and provided
additional documentation not provided during fieldwork. Below is our
analysis of that new information followed by the OIG analysis of the
responses and summary of actions necessary to close the report.

Analysis of FDRC’s Response

      In response to our audit report, FDRC concurred with 8 of the 9
recommendations made and discussed the actions it will implement in
response to our findings. FDRC disagreed with recommendation number 2
as discussed in the analysis of that recommendation below. Additionally,
FDRC submitted new documentation as part of its response that did not
pertain directly to our recommendations. We provide the following analysis
to comments made by FRDC in its response before discussing FDRC’s
specific responses to each of our recommendations and the actions
necessary to close those recommendations.

Background Checks for Staff Working With Children

       FDRC attached a copy of the Criminal Record Check and Pennsylvania
Child Abuse Clearance for an FRDC grant-funded employee working with
youth. FDRC said that in the future, it will require all staff to have
background checks. However, both the Criminal Record Check and
Pennsylvania Child Abuse Clearance specific to that employee were
completed and verified in December 2011, which was several years after the
individual’s grant-funded work with children and outside the scope of our
audit.

Selection of Subgrantees

      In its response, FDRC said that it did not consult with a member of
Congress before selecting the subgrantees and that they were selected
specifically because the subgrantee provided the types of services needed to



                                   - 32 ­
accomplish the goals of the grant. During our audit fieldwork the FDRC
President told us he consulted with the member of Congress before selecting
the subgrantees to include in the grant budget submitted to OJP, which is
why we included that information in our draft audit report. However,
because of FDRC’s statement in its response to the draft report, we have
removed that information from the body of the final report.

Budget Management and Control

       Regarding FDRC’s budget changes, FDRC acknowledged that an error
was made by not following the process to submit a budget change request to
OJP through its on-line Grants Management System (GMS). Instead, FDRC
said it was in communication with the OJP Grant Manger and submitted the
budget change request directly to the Grant Manager. From our audit we did
not have any recommendations specific to budget management and control.

Recommendation Number

  1. Resolved. OJP agreed with our recommendation to ensure FDRC
     improves the documentation that demonstrates attention and direction
     of the FDRC Board. OJP said in its response that it will coordinate with
     FDRC to obtain a copy of policies implemented for ensuring that the
     FDRC Board is actively engaged in and provides direction over FDRC
     activities.

     In its response, FDRC also concurred with our recommendation. FDRC
     said that it is in the process of recruiting new board members and
     officers and has developed a regular monthly Board meeting schedule.
     FDRC also mentioned that it plans to schedule weekly meetings
     between the FDRC President and Board Chairman and make meeting
     minutes available.

     This recommendation can be closed when we receive documentation
     demonstrating that FDRC has improved its implemented the above
     stated plans regarding board direction.

  2. Resolved. OJP agreed with our recommendation that it remedy the
     $103,092 in unsupported costs charged to the grant. OJP said in its
     response that it will coordinate with FDRC to remedy $103,092 in
     unsupported costs charged to grant numbers 2008-DD-BX-0575,
     2009-D1-BX-0098, and 2010-DD-BX-0472.

     In its response, FDRC disagreed with our recommendation. FDRC said
     that it chose to utilize the fiscal oversight services of the Urban Affairs


                                    - 33 ­
  Coalition because it would have been much more expensive to bring
  these services in-house. FDRC also submitted a copy of a letter it sent
  to the Urban Affairs Coalition asking that it provide documentation to
  support the $103,092 in questioned costs. However, neither the
  response from the Urban Affairs Coalition, nor adequate support for
  the questioned costs was attached to FDRC’s response. The FDRC in
  accepting the awards still has the final responsibility to ensure that it
  complies with the terms and conditions of the award, including
  maintaining sufficient and adequate documentation to support grant-
  funded expenditures. As a result, we maintain the questioned costs.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $103,092 in unsupported
  costs.

3. Resolved. OJP agreed with our recommendation that it ensure that
   FDRC institutes policies and procedures that ensure that grant funds
   are not used to pay FDRC employees for vacation or sick leave they
   have not earned. OJP said in its response that it will coordinate with
   FDRC to obtain a copy of policies and procedures to ensure grant funds
   are not used to pay FDRC employees for vacation or sick leave they
   have not earned.

  In its response, FDRC also concurred with our recommendation. FDRC
  said that it is establishing a Board sub-committee to address
  recommended policy changes, such as employee policies for vacation
  and sick leave, systems to track vacation and sick leave, and the use
  of leave prior to the leave having been earned.

  This recommendation can be closed when we receive documentation
  demonstrating that FDRC has implemented the above policies,
  procedures, and related systems to ensure grant funds are not used
  for leave not yet earned.

4. Resolved. OJP agreed with our recommendation that it ensure that
   FDRC improves its subgrantee monitoring. In its response, OJP said
   that it will coordinate with FDRC to obtain a copy of policies
   implemented to ensure that subgrantees are adequately monitored.

  In its response, FDRC also concurred with our recommendation. FDRC
  mentioned that it is developing an operations and procedures manual
  that outlines procedures to monitor grants and subgrantees, including
  procedures for pre-award review, collection of subgrantee invoices, on-
  site visits by FDRC staff, and a written monitoring tool.


                                - 34 ­
   This recommendation can be closed when we receive documentation
   demonstrating that FDRC has implemented procedures to improve its
   subgrantee monitoring.

5. Resolved. OJP agreed with our recommendation that it remedy
   $43,344 in unallowable expenditures made by FDRC subgrantee
   Philadelphia Safety Net. OJP said in its response that it will coordinate
   with FDRC to remedy the $43,344 in unallowable expenditures made
   by the Philadelphia Safety Net, a subrecipient of FDRC.

   In its response, FDRC also concurred with our recommendation. FDRC
   submitted a copy of a letter it sent to Philadelphia Safety Net (PSN)
   requesting all records related to the grant necessary to address this
   recommendation and reimbursement to FDRC of any funds spent by
   PSN for unallowable purposes.

   This recommendation can be closed when we receive documentation
   demonstrating that OJP has remedied the $43,344 in unallowable
   expenditures.

6. Resolved. OJP agreed with our recommendation that it remedy the
   $37,113 in unsupported expenditures made by FDRC subgrantee,
   Philadelphia Safety Net. OJP said in its response that it will coordinate
   with FDRC to remedy $37,113 in unsupported expenditures made by
   Philadelphia Safety Net.

   In its response, FDRC also concurred with our recommendation. FDRC
   submitted a copy of a letter it sent to Philadelphia Safety Net
   requesting the payroll register of Philadelphia Safety Net to verify that
   the questioned costs were used for authorized personnel costs.

   This recommendation can be closed when we receive documentation
   demonstrating that OJP has remedied the $37,113 in unsupported
   expenditures.

7. Resolved. OJP agreed with our recommendation that FDRC improve
   its preparation of Federal Financial Reports to include unliquidated
   obligations and ensure timely filing. OJP said in its response that it will
   coordinate with FDRC to obtain a copy of procedures implemented to
   ensure that Federal Financial Reports are accurate, complete, and
   timely submitted.




                                  - 35 ­
   In its response, FDRC also concurred with our recommendation. FDRC
   said that it will ensure all staff person(s) are responsible for any future
   federal grants, understand the regulations of the funding source, and
   submit to the Board, for its approval, a plan which will include
   timetables, reporting requirements, unliquidated obligations, and a list
   of dates for filing all reports.

   This recommendation can be closed when we receive documentation
   demonstrating that FDRC has implemented policies and procedures to
   ensure that its Federal Financial Reports are accurate, complete, and
   timely submitted.

8. Resolved. OJP agreed with our recommendation that it ensure that
   FDRC implements and adheres to written policies and procedures to
   ensure progress reports are adequately documented and verifiable.
   OJP said in its response that it will coordinate with FDRC to obtain a
   copy of procedures implemented to ensure that progress reports are
   adequately documented and verifiable.

   In its response, FDRC also concurred with our recommendation. FDRC
   said that it will develop procedures to more accurately track project
   metrics and more stringently oversee staff and subcontractor’s
   utilization of tracking procedures.

   This recommendation can be closed when we receive documentation
   demonstrating that FDRC has implemented policies and procedures
   ensuring that progress reports are adequately documented and
   verifiable.

9. Resolved. OJP agreed with our recommendation that FDRC improves
   the documentation that demonstrates achievement of performance
   goals and objectives. OJP said in its response that it will coordinate
   with FDRC to obtain a copy of procedures implemented for ensuring
   that adequate data is collected and maintained to support achievement
   of performance goals and objectives.

   In its response, FDRC also concurred with our recommendation. FDRC
   said that it will more accurately track metrics of performance goals
   and objectives and outcome measures. FDRC continued to state that
   it will develop a monitoring tool to be used whenever a subgrantee is
   involved to ensure performance goals are met.




                                  - 36 ­
This recommendation can be closed when we receive documentation
demonstrating that FDRC has implemented measures to document its
program performance.




                           - 37 ­
